<html>
<title> - POTENTIAL TERRORIST THREATS: BORDER. SECURITY CHALLENGES IN LATIN AMERICA AND THE CARIBBEAN</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                      POTENTIAL TERRORIST THREATS:
                     BORDER SECURITY CHALLENGES IN
                    LATIN AMERICA AND THE CARIBBEAN

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 22, 2016

                               __________

                           Serial No. 114-155

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 _________
                                 
                                 
                        U.S. GOVERNMENT PUBLISHING OFFICE
99-553PDF                    WASHINGTON : 2016                        
                                 
_________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2b4c5b446b485e585f434e475b0548444605">[email&#160;protected]</a>  
                               
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                 JEFF DUNCAN, South Carolina, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         JOAQUIN CASTRO, Texas
MICHAEL T. McCAUL, Texas             ROBIN L. KELLY, Illinois
MATT SALMON, Arizona                 GREGORY W. MEEKS, New York
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
TED S. YOHO, Florida                 ALAN S. LOWENTHAL, California
DANIEL DONOVAN, New York
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Juan Gonzalez, Deputy Assistant Secretary, Bureau of Western 
  Hemisphere Affairs, U.S. Department of State...................     2
The Honorable Alan D. Bersin, Assistant Secretary for 
  International Affairs and Chief Diplomatic Officer, U.S. 
  Department of Homeland Security................................     8
Mr. Lev Kubiak, Assistant Director for International Operations, 
  U.S. Immigration and Customs Enforcement, U.S. Department of 
  Homeland Security..............................................    19

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Juan Gonzalez: Prepared statement............................     4
The Honorable Alan D. Bersin: Prepared statement.................    10
Mr. Lev Kubiak: Prepared statement...............................    21

                                APPENDIX

Hearing notice...................................................    40
Hearing minutes..................................................    41
The Honorable Jeff Duncan, a Representative in Congress from the 
  State of South Carolina, and chairman, Subcommittee on the 
  Western Hemisphere: Prepared statement.........................    42
The Honorable Albio Sires, a Representative in Congress from the 
  State of New Jersey: Prepared statement........................    44

 
                  POTENTIAL TERRORIST THREATS: BORDER.
                  SECURITY CHALLENGES IN LATIN AMERICA
                           AND THE CARIBBEAN

                              ----------                              


                        TUESDAY, MARCH 22, 2016

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2200 Rayburn House Office Building, Hon. Jeff Duncan 
(chairman of the subcommittee) presiding.
    Mr. Duncan. A quorum being present, the subcommittee will 
come to order. We have an eight-vote series that will require 
the subcommittee to recess for about 45 minutes as soon as 
votes are called. I understand that Assistant Secretary Bersin 
has a hard stop at 4 o'clock, so we will return immediately 
after votes to conclude the opening portion of the hearing and 
to move to a classified setting. Following testimonies and 
members' questions, we will conclude there and we will conclude 
our time today.
    So I am going to, in the essence of time, skip over my 
opening statement, but I want to start off with just saying a 
couple of things. First off, I am deeply saddened by the loss 
of life in Brussels today at the hands of evil men. I want to 
dedicate today's hearing to the victims of today's attacks and 
their families. I led my first congressional delegation trip to 
Brussels in 2014 to look exactly at foreign fighter flow, 
foreign fighter threat, and the ways that the U.S. and our 
European allies could better cooperate on homeland security 
issues. And only a day before my visit, an ISIS foreign fighter 
had returned to Brussels and shot up a Jewish museum killing 
four people before he tried to flee to Africa. So today's 
depraved acts in Brussels, following the Paris attack, 
demonstrate again that evil and evil men's intentions continue 
to rip apart the fabric of free Western societies through acts 
of terror and fear.
    It brings to mind Winston Churchill's words. Let us learn 
our lessons. Never, never, never believe any war will be smooth 
and easy. Always remember, however, as sure as you are that you 
can easily win, that there would not be a war if the other man 
did not think he also had a chance. So we must show enemies 
that they have no chance of victory and we do that, in part, 
through strong defenses and secure borders.
    So I want to start the hearing. We are going to jump right 
in and submit our opening statements for the record. The 
ranking member agrees with me, so I would just go ahead and 
recognize Mr. Gonzalez for his opening statement. You are 
recognized for 5 minutes.

  STATEMENT OF MR. JUAN GONZALEZ, DEPUTY ASSISTANT SECRETARY, 
 BUREAU OF WESTERN HEMISPHERE AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Gonzalez. Thank you, Mr. Chairman, Mr. Ranking Member, 
and distinguished members of the committee. Thank you for the 
opportunity to testify before you on border security and 
vulnerabilities in Latin America and the Caribbean. It is an 
honor to be here with my colleague and friends from the 
Department of Homeland Security.
    First, just to summarize my oral remarks, I wanted to first 
thank this committee in my capacity as Deputy Assistant 
Secretary of State for Central America and the Caribbean for 
its bipartisan support for our strategy in Central America. You 
allowed us to increase funding for Fiscal Year 2015 and 
supported the President's Fiscal Year 2016 request for $750 
million, providing us with the tools to help these governments 
make a real difference on the ground. So thank you and I look 
forward to continue working with you on this.
    Now effective border management in Latin America and the 
Caribbean is vital to our economic prosperity and national 
security. Throughout the hemisphere, we are working with 
governments to eliminate trade barriers, integrate electricity 
grids and energy markets, connect national infrastructures, and 
cement commercial relationships. As evidence, I offer that our 
trillion dollar trade relationship and over 3 million American 
jobs, supported by our economic relationship with Canada and 
Mexico, demonstrate what is possible when governments 
collaborate actively.
    At the same time that we are using our border cooperation 
to promote prosperity, we are equally determined to use them to 
safeguard the homeland and to ensure safe, legal, and orderly 
migration to the United States. Border security was a focus of 
the recent Canada state visit. We always share travel 
information with Canada, including our respective no-fly lists. 
And the President and Prime Minister Trudeau used their meeting 
to discuss what more we can do to secure our borders while 
actively promoting commerce.
    We are also working with Mexico on border enforcement at 
both its northern and southern border to regulate migration, 
combat smuggling, and target narco-traffickers and our 
counterterrorism cooperation with Mexico is excellent.
    During his fourth visit to Mexico under this 
administration, Vice President Biden discussed border security 
with President Pena Nieto as he chaired at the same time the 
third meeting of the U.S.-Mexico High Level Economic Dialogue.
    Border security has also been at the front and center in 
the Vice President's active engagement on Central America since 
2014. During his latest meeting with Northern Triangle leaders 
here in Washington on February 24th, the three Presidents 
reaffirmed their commitment to continue awareness campaigns 
about the risks of undocumented migration, deepening the fight 
against human smuggling and trafficking, continued regional 
border security coordination, the strengthening of task forces 
and development of joint intelligence and border security 
facilities, and facilitate with the return, repatriation, and 
especially the reintegration of migrants who do not qualify for 
humanitarian protection in the United States.
    Our efforts in the Caribbean are aimed at combating the 
drug trade and other transnational criminal threats and work in 
lock step with the U.S. Coast Guard, the Department of Defense, 
and Department of Homeland Security to support regional 
maritime and aerial domain awareness by improving radar 
coverage and information sharing between partner nations. 
Caribbean governments are using U.S.-provided equipment and 
training to identify threats and carry out interdiction 
operations. And the U.N. Office on Drugs and Crime Container 
Control Programme is establishing dedicated container profiling 
units to improve port security.
    In South America, the Tri-Border Area of Brazil, Argentina, 
and Paraguay is a focus for regional law enforcement efforts, 
as you know from your recent congressional delegation. 
Governments in the region have long been concerned about arms 
and drug smuggling, document fraud, money laundering, 
trafficking in persons, and the manufacture and movement of 
contraband goods through the Tri-Border Area. We are working 
with all three governments on their efforts to improve border 
management and combat smuggling. We brought justice and police 
officials from Paraguay to regional conferences on money 
laundering conducted with the Department of Justice.
    Mr. Chairman, to conclude, throughout our efforts in the 
hemisphere, U.S. strategy development and program design has 
been an active exercise of coordination between the Departments 
of State, Homeland Security, Justice, Commerce, USAID, and 
others. Indeed, funding from the Department of State and USAID 
supports a lot of the work of our partner agencies. At the same 
time, the expertise and experience of our DHS colleagues, as 
well as others in the departments and agencies, have helped us 
refine our approach and we continue to look for ways to 
maximize our coordination.
    And I will close where I began, Mr. Chairman. The U.S. 
Congress is a vital partner to the administration and we look 
forward to engaging with you on our discussion today on border 
security and vulnerabilities in Latin America and the 
Caribbean. Thank you for holding this important hearing and I 
look forward to engaging in the discussion.
    [The prepared statement of Mr. Gonzalez follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
           
                              ----------                              

    Mr. Duncan. Thank you so much.
    Secretary Bersin.

STATEMENT OF THE HONORABLE ALAN D. BERSIN, ASSISTANT SECRETARY 
 FOR INTERNATIONAL AFFAIRS AND CHIEF DIPLOMATIC OFFICER, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Bersin. Mr. Chairman, Ranking Member Sires, Mr. Yoho, 
thank you for the opportunity to appear before you once again, 
particularly in the company of my distinguished colleagues, 
Misters Gonzalez and Kubiak.
    I wanted to express our gratitude, certainly mine, for the 
comments you made with regard to the events in Brussels. I 
think in retrospect it will be seen in terms of European 
security and the effect on its borders as a game changer, 
building on what happened in Paris in January.
    I was at a meeting of the European Institute today in which 
people were reacting to the events in Brussels and I thought it 
would be useful in the context of the hearing that you and your 
staff have structured, to offer some comments that I offered 
there. Because in fact, Europe is in the midst of a confluence 
of migration, refugees, asylum seekers, and terrorists. And in 
fact, it has set the European market on its back in the 
eurozone and the Schengen zone and it is placed them at great 
risk.
    And in looking at the way in which the European nations 
have reacted to the crisis that they face with respect to 
border security, we begin to see them shutting down their 
individual borders, renouncing the Schengen zone, and generally 
hunkering down in ways that were reminiscent of the way in 
which we handled border security in the immediate aftermath of 
9/11 when we shut down our airports. We shut down our seaports. 
We actually backed traffic south into Mexico and north into 
Canada by 10 to 20 miles as we looked at every trunk and we 
processed every passenger.
    And I thought, reflected, for our European colleagues today 
how different our border security looks. To be sure, we are not 
seamless and we are not perfect and we are in a mode of 
continuous improvement as the discussion in the SCIF will 
undoubtedly focus on some of the issues that we should not take 
up in public session. But think about the difference in the way 
in which we handle border security from 15 years ago.
    We used to see borders as lines on a map, the line that 
separated us from Mexico or Canada. And in fact, we now come to 
see because, in fact, we have learned that homeland security is 
intrinsically transnational. That is to say there is hardly an 
event that affects us inside our homeland that does not have a 
cause or effect that originates outside the homeland.
    So we start to look at border security in terms of not just 
in lines, but in flows. And in the global world that makes a 
lot of sense in terms of the constant movement of migrants, 
capital labor, electrons, goods, and people, constantly back 
and forth across the line.
    So we have come to see the fact that our ports of entry, 
the 327 airports, seaports, and land ports, are not the first 
line of defense, but rather they are the last line of defense. 
And what we have to do is secure the flow of goods and people 
toward the border lines, toward our homeland, as far away from 
them as possible, and as early in time before the arrival at 
the border. And we have implemented that as the testimony of my 
colleagues and I today will again document, but with which the 
chairman and Ranking Member Yoho are familiar.
    The second thing that was pointed out, so that, in fact, 
don't move away from your--don't just hunker down at your 
border line, but manage the flows. And think our testimony will 
show that we do that.
    Second is don't fragment your border agencies. I know that 
in the 1990s there were at each of our ports of entry there 
were three separate port managers, one from Treasury, for 
Customs; one for Justice, for Immigration; and one from 
Agriculture for agricultural inspection. As a result of the 
creation of DHS, we have actually created an integrated set of 
missions that will improve over time as the Defense Department 
has to actually perform a single border security function 
effectively.
    Third, we recognize that you cannot stop everything. We are 
looking for a needle in a haystack, because in fact, 97, 98 or 
more percent of the passing of people and goods are perfectly 
lawful and legitimate. And when we look for the needle in the 
haystack, we have developed means and methods of doing it, but 
we recognize that it is based on risk management and making 
assessments and managing our borders, not seamlessly, but with 
the data that we have and the intelligence that we can garner.
    Lastly, we have learned that we cannot do this alone, that 
we have to do it in partnership not only inside the government, 
among the agencies of the United States Government, but also 
with foreign partners. And a lot of our border security today 
with regard to migration, as well as drugs, as well as 
intellectual property protection, as well as counterterrorist 
activity depends on the partnerships that we have created with 
our foreign partners.
    As Mr. Gonzalez indicated, we have just embarked on a 
massive effort in partnership with Central America. It will not 
solve the problem overnight. These problems are in the making 
over generations, but we have actually taken, and I take it 
during the course of the hearing, we can explore some of the 
departures that bode well and work well than the situation we 
have seen.
    With regard to the Caribbean, we have similar efforts of 
partnership and I hope to be able to take those up, Mr. 
Chairman, in the course of the questions and answers.
    So in conclusion, the challenge of our times is that the 
future is not what it used to be, as the French poet said. But 
we have changed the way in which we manage the border and I 
look forward to answering your questions so we can explore 
where there have been improvements and where there remains work 
to be done. Thank you, sir.
    [The prepared statement of Mr. Bersin follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Duncan. Thank you, sir.
    Mr. Kubiak.

      STATEMENT OF MR. LEV KUBIAK, ASSISTANT DIRECTOR FOR 
    INTERNATIONAL OPERATIONS, U.S. IMMIGRATION AND CUSTOMS 
       ENFORCEMENT, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Kubiak. In the immediate wake of the tragic attacks 
today in Belgium, I am strengthened by the fact that our 
international law enforcement collaboration and our 
effectiveness grows stronger every day. In my more than 20 
years as a Federal law enforcement officer, ICE has never had 
greater capability to partner internationally to protect our 
nation.
    Over 400 ICE personnel are assigned to 62 offices in 46 
countries and each year we augment that staff with hundreds of 
agents and analysts on temporary detail. As today's attacks 
demonstrate, the threat continues to evolve and challenge our 
law enforcement response, but I am confident our strong global 
partnerships build our capability to identify criminals, 
terrorists, and those networks that support their actions.
    As the goal of the hearing is today to address Western 
Hemisphere affairs, I will focus specifically on that area, but 
the accomplishments and programs that will be discussed today 
are representative of our efforts globally.
    In the Western Hemisphere, ICE has 23 offices in 9 
countries, staffed by about 111 people who work on capacity 
building and exchange of best practices with our law 
enforcement counterparts and then operationalize those 
capabilities through joint investigations covering a full range 
of ICE's broad investigative authorities and work with our 
partner nations to repatriate their nationals.
    We are, at our core, a border law enforcement agency, and 
partner with our foreign law enforcement counterparts, 
Immigration and Customs officers around the world, to 
investigate transnational criminal organizations operating 
globally. Thanks to the additional appropriated funds from 
Congress in Fiscal Year 2015 and continued funding support from 
the Department of State and the Department of Defense, we have 
expanded critically important programs like the Transnational 
Criminal Investigative Units, our Biometric Identification 
Transnational Migration Alert Program, and the Trade 
Transparency Units.
    We continue to build our capacity and the capacity of our 
host country counterparts through training programs such as our 
Cross Border Financial Investigations Program, and our 
Strategic Trade Control Workshops. We put these programs and 
training to work through ambitious international and 
multilateral whole of U.S. Government joint investigative 
enforcement operations such as Operation Citadel.
    ICE's Transnational Criminal Investigative Units 
investigate all forms of illicit trade, travel, and finance. 
TCIUs are comprised of foreign law enforcement officials, 
customs officers, immigration officers, and prosecutors, who 
undergo a strict vetting process and complete a prerequisite 3-
week training course at our Federal law enforcement training 
center in Glynco, Georgia. Once trained, the TCIU members work 
collaboratively with our attache personnel to address 
significant joint law enforcement threats throughout the 
hemisphere. Through this program, ICE attaches share law 
enforcement intelligence, conduct joint investigations, and 
assist in prosecutions of transnational criminal organizations 
both in the host country and in the United States.
    TCIUs are currently operational in nine countries and 
comprise more than 250 vetted foreign trained law enforcement 
officers who in 2015 alone, Fiscal Year 2015 alone, disrupted 
and dismantled criminal organizations through the arrest of 
almost 700 suspects, the seizure of nearly 17,000 pounds of 
cocaine, the seizure of more than $6.7 million in illicit cash, 
and $13 million worth of counterfeit merchandise, not to 
mention numerous firearms, ammunition, vehicles, and vessels.
    One of ICE's highest priorities in the region is 
investigating human smuggling and trafficking. The Human 
Smuggling Cell serves as the U.S. Government's coordination 
center for all human smuggling investigations and through it 
ICE and CBP together harness DHS's unique access to immigration 
border and financial data to advance efforts to counter these 
organizations. The cell provides intelligence coordination and 
supports U.S. and foreign investigations to more effectively 
address the specific regional threat.
    For the last 4 consecutive years, as an example, ICE led 
Operation Citadel, a regional, multilateral, and multi-agency 
effort to address our transnational criminal organization 
operations, but with the specific focus on human smuggling. 
This operation coordinated attaches and TCIUs in the region and 
combined partner national capacity building, training, and 
real-time intelligence, interdiction and investigative 
operations at international seaports, airports, land borders, 
and in the interior of those countries.
    In Fiscal Year 2015, Operation Citadel dismantled several 
large transnational human smuggling organizations. Most 
significantly, one investigation coordinated collaborative 
investigations at the same time in Honduras, El Salvador, 
Guatemala, Mexico, and the United States, dismantling a 
prolific transnational criminal organization operating 
throughout Central America and throughout the hemisphere. As a 
result, 14 separate human smuggling routes were identified and 
disrupted, including routes used by smugglers to move third 
country nationals from the Eastern Hemisphere through the 
Western Hemisphere and into the United States across the 
southwest border. In total, Citadel's 2015 results included 210 
arrests, the recovery of 51 unaccompanied minors, the seizure 
of $2.1 million in currency, over 2100 biometric collections or 
enrollments and the initiation of 68 new and on-going 
investigations.
    There is much work still to do and the need to continue to 
strengthen international partnerships through training and 
joint operations, but ICE is fully engaged in addressing 
current and future threats. I am confident that we will 
continue to build upon this momentum and generate additional 
considerable operational achievements as we move forward. Thank 
you for the opportunity to answer your questions.
    [The prepared statement of Mr. Kubiak follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
          
                              ----------                              

    Mr. Duncan. Thank you. We will move into the question 
portion of the hearing and we will try to get through as much 
of the question portion as we can. When we break for votes, we 
are just going to end the portion of the committee hearing 
here. When we come back for votes, we will go straight to the 
SCIF, so I would ask the panelists to head on down to the SCIF 
when we leave for votes.
    Mr. Gonzalez, following the Paris attack in November, there 
were press reports that indicated that the EU was considering 
tighter and systematic ID checks. Let me back up. Press reports 
and other reports surfaced that a Syrian individual, under 
investigation for participating in the attacks, had traveled to 
Brazil, Ecuador, and Colombia in July before bribing a 
Colombian official to leave the country. INTERPOL stated in 
November that the estimated 25,000 foreign terrorist combatants 
thought to be operating across the globe, only 5,600 have been 
identified by law enforcement agents.
    So what can you tell me about the individual that may have 
traveled to Colombia and Ecuador and Brazil and him leaving the 
country? And I would also like for you to talk about the fact 
that we have a lot of folks from Syria and other places 
traveling the tri-border region on falsified or fake documents, 
exchanging those documents, and then transiting Latin America 
either to come here or to go in other places.
    We just traveled, and we heard from the Paraguayans, and 
this continues to be the case. We saw the five Syrians that 
were apprehended in Honduras. So we know folks are traveling to 
this area. We know one of the Paris attackers possibly did. I 
would like for you to talk about that briefly, if you can.
    Mr. Gonzalez. Thank you, Mr. Chairman. First, thank you for 
taking that trip because I know this is an initiative you have 
been active on and it is something I know our whole government 
is actively devoting resources and time into. On this 
particular case, sir, we looked into, we heard the same 
reports. We looked into it and we had nothing to actually 
corroborate that it was somebody that was associated with the 
Paris attacks. In fact, what we did find was that it may have 
been a woman that was there fleeing violence from Syria. But it 
is something that we will continue to actually look into given 
the seriousness of the case and we can expand on this in the 
classified setting definitely.
    Now with regard to the tri-border region, it is a place as 
you saw when you visited Ciudad del Este, that it is a place 
that does not have active border controls and it is incredibly 
concerning. We actually talk about perhaps issues that you have 
actually been very active on as well around Hezbollah. What we 
have found is that it is a place that illegal actors will use 
actively for financing, right? So that is definitely obvious.
    What we have not been able to find is whether it is 
actually organized or whether it has actually been used as a 
stopping off point for any sort of organized attack or any sort 
of terrorist activity. However, it is a source of migration as 
the migration patterns throughout South America are incredibly 
complicated.
    And the way that we would approach this, Mr. Chairman, is 
because we are in March, I am going to use the March Madness 
analogies. We are using man-on-man defense. As the Assistant 
Secretary Alan Bersin said, it is a needle in a haystack and we 
are actually actively looking for individuals that might pose a 
threat. And then on Central America and the Caribbean where I 
have played a more active role, we are playing zone defense 
where what we have been doing is investing resources to make 
sure that there is a presence of the state and that the rule of 
law is something that is being advanced. And that helps us 
whether it is migration, whether it is trafficking in persons, 
whether it is narco-traffickers. If you are actually working to 
support the governments of the northern triangle, the southern 
triangle and other parts in the Caribbean as well, and on the 
maritime, on the aviation, on border controls, something that 
we partner with DHS on, but also more importantly not just 
regarding the physical border as the area where we would focus, 
but with the judicial sector, strengthening police, and 
actually working to address crime and violence, we have 
actually seen amazing results. And in fact, we have had a 
couple of operations recently where we have been able to 
intercept special interests, aliens from different parts of the 
world, and of course, getting these countries to defend against 
undocumented migration.
    I will say, sir, just my last point on this is that the 
majority of individuals that are traveling, be they from 
special interest alien countries or other places, we found the 
large majority of these individuals are actually fleeing 
violence from other parts of the world, but of course, we have 
to be very vigilant and we are looking at those individuals 
that might actually pose a threat and when we do, we actively 
work with these governments to respond.
    Mr. Duncan. Thank you for that. And we saw very clearly 
that there are no border controls between Brazil and Paraguay. 
In fact, in Ciudad del Este it was wide open. An armed guard or 
two, but that is about it. We learned from the Paraguayans that 
there is no border control north of there anyway. In fact, a 
county road dissects the border and so when you are driving 
down the road, you might be in Brazil, you might be in 
Paraguay. So I guess I appreciate State and DHS working very 
well with the Paraguayans on counter-narcotics and 
counterterrorism efforts and I want to continue that.
    So if we have episodes of say these five Syrians that were 
apprehended in Honduras and I think those were just the ones we 
know about that were caught, Secretary Bersin, you talked about 
a secure border. I agree that at our border checkpoints where 
we are pulling agriculture out to inspect it, we are trying to 
identify those coming across the border and at the border 
checkpoints, absolutely we are doing it a lot better than we 
ever have.
    My concern on our southern border is all the areas that we 
are not patrolling, we are not fencing, we are not apprehending 
anyone. We are actually allowing interior enforcement to have a 
lead role in that. But then the administration is actually 
relaxed with interior enforcement, as well as policies of the 
administration I hope change in the next administration. But if 
someone can transit through Latin America through the tri-
border region, hoping to do nefarious aims in the United 
States, then they could get to Mexico, just like the 
unaccompanied children or all the migrant workers that come 
into this country enter our southern border, without going 
through a border checkpoint that you talk about.
    So I would like for you to talk a little bit about what the 
agency is doing on not the border checkpoints, not in Laredo or 
Nogales, I am talking about all those areas between the two. 
And whatever you can tell us in that because I will tell you 
this, my constituents are concerned that the soft underbelly of 
this nation is our southern border that is unsecured. If you 
can speak to that.
    Mr. Bersin. Mr. Chairman, so remembering our last exchange, 
we have a different set of experiences. I remember when this 
border was absolutely out of control when I became the U.S. 
Attorney, the so-called Border Czar in the 1990s, we were 
arresting one million, a million two, a million four unlawful 
migrants to the United States every year. That was an era when 
we had 3,000 border patrol agents, no cameras, no technology, 
and as a result of a bipartisan effort of President Clinton, 
President Bush, and President Obama, we invested $18 billion a 
year. And I simply disagree with the notion that there has been 
no difference in our southwest border. And we have 22,000 
agents, 19,000 of whom are on the southern border.
    So we have a difference of view of the relative state of 
the border. And I just think we should agree that no one 
claimed that we are ever going to seal this border like the 
Berlin Wall tried to seal people from leaving West Berlin, but 
no one should claim that it is a seamless border. That is to 
say that it is not susceptible to smuggling of people, but I 
can assure you with the number of apprehensions down at a 70-
year low, at a time when we have 10 times the number of agents 
that I remember being on that border, the border is not what it 
used to be.
    But let me take up the----
    Mr. Duncan. Let me just speak to one comment you have made. 
If I am playing a football game, I can affect the score by not 
scoring. Apprehensions are down. I agree with you. But the 
border patrol people I talk to say the apprehensions are down 
because the administration wants them to be down.
    I still think that we have people cross our border and we 
can disagree, but you can affect the score two ways. I yield 
back to you.
    Mr. Bersin. I have talked to some of those border patrol 
union officials over the 20 years I have been involved in 
border patrol and respectfully, you should look at the axe that 
there is to grind there. The fact is that it is a disservice to 
the men and women of the United States Border Patrol, sir, to 
claim that they are not doing their job on the border. They do. 
But let us leave that argument for another day. I think I 
understand your point.
    But I would like to take up the five Syrians because I 
think they actually demonstrate good points and bad points of 
our contemporary situation. So on November 17 of 2015, five 
Syrians were encountered in Tegucigalpa, Honduras in Toncontin. 
They had arrived on a flight from Costa Rica and they presented 
photo altered Greek passports. Records checks indicated that 
the Greek passports had been reported stolen from Athens, 
Greece, and they were interviewed by HSI Transnational Criminal 
Investigative Unit agents stationed in Honduras, the TCI Units 
that Mr. Kubiak referred to. And the Syrians indicated that 
they were en route to the United States. They were placed in 
Honduran jails for 17 days and they were eventually released 
because of local laws that limited the amount of time that you 
could hold someone based on the administrative violation and 
the local asylum laws.
    Subjects then proceeded by bus to Guatemala and on March 
20th of 2016, four of the subjects were encountered at Laredo, 
Texas and they requested asylum. They were interviewed, 
processed, and transported by the border patrol and then by ERO 
to the Rio Grande Detention Center and are currently detained 
pending outcome of their asylum claims.
    So here are the good points. We are doing a lot of work 
beyond the border with foreign partners to actually identify 
threats, particularly when they come from so-called special 
interest areas. But we did not have the capacity to take any 
action to either assist the Hondurans to continue to detain and 
then to transport people because of lack of authority. People 
then got to the border and claimed asylum. And as you know, 
because of the lack of resources provided to the Immigration 
Courts, those hearings will not take place in an expedited time 
so that we can take action.
    But by the same token, they were not released simply to go 
into the country because--not because we had discovered any 
facts about any terrorist ties that they have because, in fact, 
they were fully vetted, but they were held because, in fact, we 
do not want to risk any danger from this particular population 
at this particular time.
    So I think the case is actually a good indicator of 
progress that we have made, but an enormous amount of work we 
have to do, both to assist our foreign partners to develop 
border control capacities, but also frankly, to mend our 
immigration processes here at home.
    Mr. Duncan. Thank you for that. I am going to turn to the 
ranking member.
    Mr. Sires. Thank you, Chairman. I just want to say the 
chairman put together a great codel, which was very informative 
for me. We certainly learned a lot about especially border 
crossing in some of these areas that have nothing. They just go 
back and forth without any kind of scrutiny.
    Can you define for me or discuss how the U.S. Government 
defines special interest aliens? How do you do that?
    Mr. Bersin. If I might, I would ask Mr. Gonzalez or Mr. 
Kubiak to add. There are actually different definitions in 
part, depending on different agencies, but they all tend to be 
outside the Western Hemisphere. They tend to be either a 
listing of countries. I have seen listings up to 35 countries. 
Other agencies take up a more restricted terrorist-related or a 
terrorist-centric view of the definition. But I take your 
point.
    We have no standard definition of special interest aliens, 
but I will tell you that consistent with Mr. Kubiak's point, 
when it comes to the checks that DHS personnel are making in 
Panama and Mexico, we take the biometrics of every person who 
is from outside the hemisphere so that we can check them 
against the holdings of the United States Government.
    Mr. Sires. Because I am thinking we were in Costa Rica. We 
went with the President and obviously, Costa Rica is going 
through this issue with the Cubans and the Costa Rica 
Government coming through, but only 60 percent of those people 
going through there are Cubans. They said 40 percent were 
basically other nationalities, from Africa, from Bangladesh, 
Pakistan. Do you determine--how do you determine there which 
ones are of special interest to us?
    Mr. Bersin. First, Mr. Sires, with due respect, I was 
corrected recently in preparation for the hearing on the 
proportion of special interest aliens. In fact, the large 
majority of people who are coming up from Panama into Costa 
Rica are actually Cubans. Three quarters of the flows are 
actually Cubans at this juncture and the number of special 
interest aliens from outside the hemisphere are actually a 
relatively smaller percentage. And a small number in terms of 
we are talking about 4,000 or 5,000.
    Mr. Sires. In my view, a smaller number is easier to get 
through our borders because you tend to pile them up together 
with the other people.
    Mr. Bersin. So in fact, having visited, then in fact, I 
would urge because I agree with Mr. Gonzalez and the chairman 
and you, Ranking Member, that visiting the five border areas is 
an eye opener and an important insight for American public 
servants, legislators, and Executive Branch alike, I suggest 
that you consider going down to Meteti in the Darien in Panama 
to view the work that is being done by HSI and Customs and 
Border Protection in concert with the American Embassy and 
Ambassador John Feeley in Panama.
    It is interesting, but the arrangement we have there, Mr. 
Sires, is that we stop people, the Panamanians stop, detain 
people, for 7 or 10 days or longer depending on whether or not 
they come from a particular country, so that we can actually 
take their fingerprints and then check them so that, in fact, 
we can identify any high-risk persons coming through. But most 
of those people coming up through Panama are not special 
interest aliens.
    Mr. Sires. But you know my concern, right? Sometimes they 
get bundled in with the rest. But you said, did I hear you 
correctly? You said special interest aliens, you have one set 
of definitions, you have another set of definitions. There is 
no one set definition.
    Mr. Gonzalez. So Congressman, I think first to your other 
question, if I may, sir, I think part of the migration issue 
that we are facing, and Mr. Kubiak has some excellent examples 
of, we are cooperating with DHS and HSI to address the issues. 
Regardless of the definition of special interest aliens, in 
some regards, the flows that are coming through are ones that 
are taking up bandwidth for border officials, right? And a lot 
of this is a result of what I would say is less than strict 
immigration standards in some of these countries that actually 
led to what you saw as the almost 8,000 Cubans that ended up 
stuck in Costa Rica.
    So one of the things that we have been doing is working 
with Costa Rica, Panama, and Colombia and even Ecuador to try 
to get them to implement stricter visa standards to actually 
stamp the passports so that when they are traveling through, in 
some of these countries, Costa Rica, for example, by law has to 
deport an immigrant to the country they were just in, but if 
their passport is not stamped, it makes it complicated because 
they don't actually show what their travel route is.
    So we are actually working with them on the kind of reforms 
that they have to undertake. But then when they actually are--
there are third country nationals that are in the country, what 
we will do is we will work with DHS and others to try to see if 
there is anybody of interest in that group that we need to 
actually--that poses a law enforcement challenge. And we can 
dive into this in the classified briefing to a certain extent, 
but it has been a two-pronged approach.
    And to your question, sir, just on the special interest 
aliens is DoD has a larger definition than the State Department 
does and a lot of it has to do with where the--I think our 
number is either 38--36 or 38, and I can confirm that. And DoD 
has a 39 number. DHS has a more expansive number. And a lot of 
it has to do with countries that you see as posing a risk. So I 
think DHS poses a wider net because of the migration issues 
that they, of course, are working on.
    Mr. Kubiak. Sir, it is exactly your question for the reason 
I didn't use special interest alien in my opening statement 
because we are trying to get away from that term, specific 
terminology, because of this inherent problem that you have 
just identified. What we are referring to is third country 
nationals not from the Western Hemisphere, in other words, 
people from outside of our regional world. And it is specific 
because we are not necessarily worried about specific 
nationalities although there is some higher threat in certain 
areas of the world.
    What we are worried about are bad actors within those 
communities, to your point exactly, and it is the ones and twos 
along the way that may have some intentional bad harm that we 
need to ferret out as Mr. Bersin said, shrink the haystack to 
make sure that we have really the best information possible 
about those that intend harm to the United States or to the 
region. And so it is programs like bitmap and our Transnational 
Criminal Investigative Units that we have worked in partnership 
with the other government agencies that allow us, and in the 
classified setting, I will get into much more detail in a 
couple of examples to give you how this exactly is working, but 
we are able to identify individuals to collect biometrics long 
before they get to the United States. Mr. Bersin did hint at 
even in some cases when we are able to do that, we are not able 
to then stop their forward and onward progression to the United 
States where they can show up at a port of entry and claim some 
form of relief.
    Mr. Sires. I have other questions, but we will get to it 
later. Thank you, Mr. Chairman.
    Mr. Duncan. Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman, and I appreciate all of 
you being here. Mr. Bersin, I appreciate the briefing before we 
went down to South America. It was a great trip. And I thought 
it was interesting when we were talking about the border 
security there in the tri-border area how they were telling us 
how lax it was, but when we met with some of the dignitaries, 
they said oh, no, we have got good border security. I saw a 
disconnect there.
    I think we are all in agreement that border security is a 
national security issue. That is something we all take 
seriously. Obviously, you do, but yet we see the lapses, and I 
appreciate the work that you guys have done from the 1990s to 
today, but it is a different game today. Back then, we were 
worried more about people coming into this country wanting 
jobs, wanting a better life, wanting opportunity and the drug 
trafficking. Today, we have got people that want to do us harm 
and it is like a cake. You only need one drop of kerosene to 
mess up the whole batter and we can't afford any of that. And 
certainly we have seen that in what is going on in the European 
Union with Brussels, with Paris, with these attacks that like 
you said, is going to shut down our whole economy. It is their 
9/11. Can we afford another one? Or do we want another one of 
those here in the United States?
    And you are talking about the control. Before 9/11, we were 
pretty lax. 9/11 taught us a lesson. Now we have got TSA. Now 
we are doing checks at the curb, more perimeter checks before 
they even get into the airport. Where do we go next? Do the 
people just--five miles out from the airport? Or is it people 
coming into the cities, the people coming into a state? At what 
point do we say enough is enough and really crack down or find 
a different way to crack down?
    Border security to me is a national security issue that has 
to be done. And I disagree with Mr. Trump wanting to build a 
wall. I don't think we need that. I think we have the 
technology, the personnel, and resources that we can do a good 
job, but it can't be done by itself. It has to be done with 
enforcement of the laws already on the book. Because right now 
there is a global policy around the world. People say there is 
a magnet, it is a global policy of unenforcement of immigration 
laws, that if you get to this area you get in and you get your 
pass go card, pass jail free card. It is the lottery for so 
many people. And they are struggling to do whatever they can to 
get here and if we can change some things and this is what I 
would like to hear from you guys.
    Mr. Kubiak, you were talking about what you guys are doing 
on immigration and customs. I visited the Jacksonville Custom 
and Border Patrol people and they gave me several cases of 
where people were picked up. They took them back, put them on 
the plane to Honduras. A week later, they see them on I-10 
driving by the same guy that deported them and the guy is 
smiling at our Custom and Border Patrol agent and it happens 
over and over again. They had several cases they showed me of 
convicted felons, whether it was DUIs or whether it was drugs 
or robbery that were deported, but they are back in this 
country because there is a revolving door. Plus, we were told 
there were directives coming out of the DHS and out of the 
White House and it was called PEP, the Presidential Enforcement 
Preference, where they are not enforcing or being told to let 
these people go.
    So we can do all the right things and I commend the Custom 
and Border Patrol agents. They are doing the right thing, but 
when you have policies that are counter-productive, it is 
putting American lives at risk. All we have to do is look at 
the story of Kate Steinle, the young lady that was murdered out 
in San Francisco in a sanctuary city. We are working on 
defunding those kinds of cities, but not holding these people 
accountable and not allowing them back in. And when they are 
brought back in, they either need to be incarcerated or they 
need to make sure their host country keeps them in there.
    We just saw what happened over the weekend in the 
Farmington neighborhood up here in Maryland where four people, 
three of them I think had already been deported one or two 
times, they are back in this area, causing crimes on American 
citizens. This is something that until we change, have a 
paradigm shift in how we deal with this. It is going to 
continue, and then God forbid that terrorist comes in illegally 
that should have been stopped, like you brought up in Honduras 
that didn't make it into Texas, luckily four of them got picked 
up. Was there one that didn't get picked up?
    So they picked the one up, but how many have come through 
that haven't been picked up?
    So what would you do, what would you recommend to us and I 
heard you, Mr. Bersin, say that until we change how these other 
countries deal with the people that were picked up and how we 
can deport them, what needs to change on this end to force 
those countries to do that? Is it withholding foreign aid? It 
is changing laws on our books? I would like to hear from both 
of you on that, what we need to do here to put an end to this 
because right now I see a revolving door on too many things and 
it is just a matter of time before somebody comes in and we 
have a problem.
    Mr. Kubiak. Thank you, sir. Thank you for the questions and 
for the opportunity to address. So just to answer your question 
first, the last question first, part of what I am seeing and 
that I mentioned in the opening statement to a degree is as you 
mentioned in the 1990s, prior to 9/11, we had different border 
strategy and we have changed that a lot over time. What I am 
seeing through our international partnership and engagement 
with our foreign counterparts and through our collaboration 
with State Department is that that is changing as well down in 
Central America, South America, and Mexico.
    Specifically, in Mexico, we have seen an increased 
engagement over the last 2 years unlike I have ever seen before 
where they are attempting to address and they have a long way 
to go like we did pre-9/11 to the situation that we are today. 
But I think one of the things that we can do from here is a 
continued and constant capability building. We are never going 
to be able to enforce our way out of the illegal immigration 
floor solely. We have to have some impact on what we refer to 
as the push and pull factors that cause immigration. And so as 
you know, I am sure from your visit, a lot of the push factors 
are involved with reducing violence in the countries from which 
people are coming, Syria being the most tragic example, I 
think, and what is driving people out of that country. To 
continue to grow their economies so that we don't get as many 
economic migrants moving this way, and then to also work on 
reducing, as Mr. Bersin said, some of the immigration 
challenges that we have in the United States and some of the 
loopholes that we are able to address.
    Mr. Yoho. Well, just along that line, the ``ag'' guest 
worker program, the H-1B visa, we have got farmers in our 
district that are going through the right process, they are 
recruiting the worker, they are going through the visa process. 
They get them into the United States. The workers know that the 
rules aren't going to be enforced, so they leave that farm and 
go into a different field of operation. Our farmers are calling 
ICE and ICE says nothing we can do. Those policies need to 
change on this end because it will put a stop on the change of 
people coming over here. And until we do that, people are just 
saying hey, get to America, they are not going to enforce that. 
Don't worry about it.
    Those are the things that I want to see changed. And what 
do you need to do in your agency, who is preventing you from 
enforcing those laws on the book? Is it a directive coming out 
the White House?
    Mr. Kubiak. Sir, nobody is preventing us. We have 
resources. The priorities have been set by the Secretary.
    Mr. Yoho. Secretary of?
    Mr. Kubiak. Secretary Johnson.
    Mr. Yoho. Okay.
    Mr. Kubiak. Department of Homeland Security, that outlines 
the way that immigration----
    Mr. Yoho. Why would they allow people to leave those H-1B 
visa that the farmer goes through to accomplish to get that 
person here legally? Why would they allow that not to be 
enforced?
    Mr. Kubiak. Sir, I am not----
    Mr. Yoho. I'm sorry, it is H2-A visa.
    Mr. Kubiak. Yes, I apologize. I am not familiar 
specifically with that particular issue. I did spend some time 
as a special agent in charge in Northern New York where I 
worked with the U.S. Attorney's Office and we did do work in 
that----
    Mr. Yoho. Those are the things that if we can change them 
and enforce it, it would stop that magnet and that pool of 
people saying, hey, don't worry about it, man. They are slack 
on that. They are not going to do anything. And then you are 
going to get this--the radical jihadist terrorist that is going 
to come through on a work visa and they are going to come in 
that way and that is--you know, I want to know who is going to 
be held accountable for that, what agency, what department? Who 
is going to answer to the kids, to the family, or the parents 
that got damaged in that attack? Yes, we should have enforced 
those laws, but we didn't. We are all going to have to answer 
to that and I don't want to answer that.
    Let us see. And then the other thing that was brought up 
when I was visiting there, there was 1200 miles of coastline in 
Florida. We have 90 CBP, Custom Border Patrol agents, 70 boots 
on the ground. They did 4,000 arrests in the State of Florida 
or in that whole district. And they need more agents is what I 
was told, but there is some Northeast states that have 400 
agents and they do 50 arrests a year. And is there a way to 
adjust those for need?
    Mr. Bersin. I am probably best equipped to respond to that. 
So the allocation formulas by region, Mr. Yoho, depend on a 
variety of factors. Arrests are one, but you could imagine a 
colleague in Vermont or Michigan, North Dakota, South Dakota 
that would still be concerned about having a sufficient number 
of agents there to patrol the territory they are responsible 
for.
    So arrests are one, but not--I think CBP and Commissioner 
Kerlikowske can speak or Deputy McAleenan more directly to 
current practice. There is a pretty sophisticated workforce 
allocation model that takes into account a variety of matters 
which accounts, frankly, for the fact that of the 22,000 Border 
Patrol agents, 19,000 are in the 6 states--the 4 states of the 
Southwest border.
    If I might though, address two issues on what we could be 
doing abroad. So when, in fact, the CBP and HSI officers in 
Panama and Meteti are running against special interest aliens 
or third country nationals, there is no capacity of the 
Panamanians right now to hold and detain large numbers. And the 
problem that we run into all the way up toward the Southwest 
border is that we often have trouble getting travel documents 
to be able to deport and to assist. There is no funding to 
support Panama or the Central American countries to do their 
own deportations in a systematic way. As we know from our 
experience, it takes a system to actually apprehend, detain, 
care for, and then deport a person who has no lawful right to 
be in a particular country. The Central American countries are 
at the very threshold of being able to develop that. But it 
would help, actually, and I could go into specifics with you 
and I would be happy to do it offline. There are a number of 
authorities at DRO that ICE does not have acting abroad that 
would permit it to actually assist in the deportation of people 
other than from the United States.
    The second point, I have to go back and remind you that we 
have 243 Immigration Judges in this country, and we have 2000 
Federal Judges. You cannot get the job done in a lawful, 
speedy, secure way with the paucity of resources. And when 
President Obama in 2014 asked the Congress for the resources to 
build an Immigration Court, we know what happened to that bill. 
The problems we have to address internally as well as abroad, 
sir. I grant you that premise.
    Mr. Duncan. We will stand in recess. We will reconvene in 
the SCIF after votes.
    [Whereupon, at 2:56 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
